No: 20-5157
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

DENARD STOKELING,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE
I certify that on this 26th day of October 2020, in accordance with SUP. CT. R. 29, one
copy of the Reply Brief and the Certificate of Service, were served electronically with the Clerk
of the Court using CM/ECF, and sent via third party carrier for delivery upon acting Solicitor
General Jeffrey B. Wall, Office of the Solicitor General of the United States, Room 5614,
Department of Justice, 950 Pennsylvania Avenue, N.W., Washington, D.C. 20530-0001.
MICHAEL CARUSO
Federal Public Defender
Fort Lauderdale, Florida
October 27, 2020

By:

s/Brenda G. Bryn
Brenda G. Bryn
Assistant Federal Public Defender
One East Broward Boulevard, Suite 1100
Fort Lauderdale, Florida 33301-1842
Telephone No. (954) 356-7436

